No. 20-

 

 

IN THE
Supreme Court of the Gnited States

MILLIMAN, INC.,

Petitioner,
v.

JAMES J. DONELON, COMMISSIONER OF INSURANCE
FOR THE STATE OF LOUISIANA,

IN His CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.,

Respondent.

On Petition for a Writ of Certiorari to the
Louisiana Supreme Court

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,059 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
